                 U.S. Department of Agriculture

                    Office of Inspector General
                                Midwest Region




         Audit Report

Child and Adult Care Food Program
 Supper Meals Served in Schools




                       Report No. 27601-35-Ch
                                    July 2006
Roberto Salazar                                                                                                                                2


which are now offered in seven States. 3 Since 1978, the CACFP served supper meals to children
that attended Outside-School-Hours centers, but unlike suppers served in At-Risk areas, the
centers were reimbursed different amounts 4 based on a child’s eligibility for a free or reduced-
price meal. In addition, supper meals served to children through the At-Risk care component of
the CACFP can be provided by a school food authority, already authorized to participate in the
NSLP, or an outside organization authorized under CACFP.

Both the NSLP and CACFP offer children nutritious meals throughout the day. While the NSLP
provides meals in a school atmosphere for school aged children up to 18 years old, the CACFP
offers its meals in a daycare setting for children 12 years of age or younger. The meal component
requirements (meat, bread, milk, and two servings of fruits and/or vegetables) are essentially the
same for both programs, except that under NSLP a school may implement an offer versus serve
meal serving option.

In our prior audit of the Chicago Public Schools, which operated as a CACFP At-Risk center, we
found that 78 percent more supper meals were counted than met requirements. Specifically, the
schools implemented the NSLP’s offer versus serve meal serving option that allows a child to
decline up to two menu items. 5 However, the CACFP requires that a child take all menu items
for that meal to be reimbursable. The improper claim was directly related to Chicago Public
Schools not following State requirements. We found that the State agency prohibited the use of
offer versus serve for supper because they were not sure whether that NSLP meal serving option
applied to suppers served under the CACFP. The FNS Midwest regional office confirmed the
State agency’s position in a letter stating that the offer versus serve option cannot be used for At-
Risk suppers and all menu items must be taken.

OBJECTIVE

The objective of this audit was to evaluate FNS’ requirements for and oversight of CACFP
suppers served in schools operated as Outside-School-Hours and At-Risk centers.

SCOPE AND METHODOLOGY

We performed the audit at the FNS National Office in Alexandria, Virginia, and contacted FNS
officials at the agency’s seven regional locations. During fiscal year 2005, there were 35 million
supper meals (valued at over $70 million) served in all centers nationwide, which included child
and adult day care centers and schools. Since FNS did not have detailed State-level information
on suppers served in schools, we collected information from all 50 States and determined the
number of sponsors, sites, and supper meals served. We calculated that there were nearly
10 million supper meals (valued about $21 million) served in schools for about

3
  The Agriculture Risk Protection Act of 2000, Public Law 106-224, approved four States; (1) Delaware, (2) Michigan, (3) Missouri, and (4)
Pennsylvania. In 2001, Illinois was added through The Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriations Act, 2002, Public Law 107-76. Two States, New York and Oregon, were selected through approval of the Secretary of
Agriculture through a competitive application process.
4
  Daycare homes and centers receive different levels of reimbursement per meal based on a child’s eligibility for a free, reduced-price, or paid
meal determined from the parents’ income.
5
  Offer versus serve under the nutrient standard menu planning approach requires schools to offer at least three menu items and students to take
the entrée and one other item and decline up to two items; under the food-based menu planning approach schools must offer all five required
menu items and students may decline up to two menu items. (See 7 CFR 210.10)
Roberto Salazar                                                                                                                               3


216 Outside-School-Hours and 774 At-Risk centers nationwide for fiscal year 2005. We
conducted audit fieldwork from November 2005 through March 2006.

To accomplish our objectives, we: (1) reviewed pertinent Federal regulations, policy, and
guidance, and previous audits performed by the Government Accountability Office and the
Office of Inspector General, (2) interviewed FNS National, regional, and selected State officials
to discuss program policy and procedures, and (3) obtained program data that included the
number of supper meals claimed for Outside-School-Hours and At-Risk centers by State from
October 2004 through September 2005. This audit was performed in accordance with
Government Auditing Standards.

FINDING AND RECOMMENDATIONS

Additional Guidance is Needed for CACFP Suppers Served in Schools

Our review found that FNS regional and State officials interpreted CACFP meal requirements
differently than the FNS National Office. FNS had not developed regulations or issued adequate
guidance on the supper meal requirements for meals served in schools. As a result, there was no
consistency in either the implementation of supper meals or in the determination of whether
those meals were properly claimed.

Federal regulations 6 for CACFP suppers require schools to use a meal pattern that requires five
menu items including: milk, a meat (or meat alternative), two or more vegetables and/or fruits,
and a bread (or bread alternative). CACFP requires that a child take all menu items for that meal
to be reimbursable. However, a State agency may allow schools participating in the NSLP to
substitute the meal pattern requirements of the regulations governing NSLP. 7 The meal pattern
requirements for the NSLP allow an offer versus serve meal serving option, in which a child may
decline up to two menu items. Federal regulations 8 do not specifically mention an offer versus
serve provision for supper except that, at the discretion of the adult day care center, adult
participants may decline one of the menu items.

Our review disclosed that FNS did not issue guidance on the meal requirements for suppers
served in schools, whether in Outside-School-Hours or At-Risk centers. The guidance FNS did
issue related to At-Risk snacks, and we were initially informed by FNS officials that the At-Risk
snack requirements also applied to suppers. However, FNS officials indicated that separate rules
and guidance are necessary for suppers, since we identified that the guidance issued for At-Risk
snacks did not allow the offer versus serve option. Due to the absence of supper regulations and
guidance, FNS regional and State offices may have inadvertently imposed a restriction on its
schools by not allowing the offer versus serve option in serving suppers.

In discussions with FNS regional officials, we found that six of the seven regional officials stated
that supper is a component of CACFP, and therefore, schools must follow CACFP meal

6
  7 CFR 226.20 (a).
7
  7 CFR 226.20 (o).
8
  7 CFR 226.20 paragraphs (o) and (q). Paragraph (o) does not mention offer versus serve and paragraph (q) titled offer versus serve refers only
to adult day care centers.
Roberto Salazar                                                                                                         4


requirements. When asked whether offer versus serve was an option for suppers, six of the seven
regions stated that it was not an option. FNS regional officials stated that the CACFP
regulations 9 did not specifically allow the use of offer versus serve, except for adult day care
centers. Although one region stated that offer versus serve was an option for CACFP supper, as a
result of our questioning they did contact the FNS National Office for clarification. The FNS
National Office, in an e-mail to three of its seven regions confirmed that: State agencies may
allow centers that belong to both the NSLP and CACFP to implement the offer versus serve
option in serving supper meals in schools.

We also found that two State agency directors interpreted supper meal requirements differently
than the FNS National Office. This led to problems in determining whether a supper meal was
reimbursable at one large center. As noted in our audit 10 of Chicago Public Schools (the second
largest At-Risk center nationwide), the Illinois State agency had a written policy for CACFP
meal requirements, which stated that a student must receive all menu items for a supper to be
considered as a reimbursable meal. We determined that Chicago did not follow those
requirements and that 78 percent more supper meals were counted than met requirements. In
New Jersey, which provides program oversight of the Newark Public Schools (the largest
Outside-School-Hours center in the nation), a State agency official stated that supper meals must
follow CACFP meal requirements. However, the State agency did not document whether that
policy applied to centers that operated both the NSLP and CACFP. Therefore, if during the State
agency’s reviews of its centers, it found that some centers followed CACFP while others
followed NSLP meal requirements, it would not be able to enforce only CACFP requirements
since regulations can be interpreted to allow both.

During fiscal year 2005, there were about 10 million supper meals (worth over $21 million)
served in schools; and during the last 3 years the number of supper meals claimed at At-Risk
centers has risen over 36 percent. Since the authorization of the At-Risk provision in fiscal year
2000, we found that FNS had not issued regulations or guidance on the meal requirements for
suppers. FNS officials stated that they had supper regulations, but they were still in draft form
and not available for our review. The discrepancy of the supper meal requirements between a
State and local school correspond with the different interpretations between FNS offices. FNS
National officials agreed that they needed to issue additional guidance on meal patterns for the
suppers served in schools.

Recommendation 1

Issue guidance to all regions and States on the CACFP supper meal requirements and the use
of the offer versus serve option.

Agency Response

In its response dated, June 22, 2006, FNS agreed with our recommendation and stated that
guidance for the CACFP supper meal requirements and the offer versus serve option will be


9
    7 CFR 226.20 (o) and (q).
10
     Audit 27010-0017-Ch, Chicago SFA’s Accountability and Oversight of the NSLP, SBP, and CACFP Supper (Sept. 2004).
Roberto Salazar                                                                               5


completed by July 31, 2006. The guidance will be posted on the FNS Partnerweb, which is
available to all CACFP State agencies and FNS regional offices.

OIG Position

We accept FNS’ management decision. For final action, FNS officials need to inform the OCFO
once the guidance is completed and posted, and all CACFP State agency and FNS regional
officials are notified about the guidance.

Recommendation 2

Provide a time-phased action plan on either the development or amendment of regulations
related to supper meals served in schools.

Agency Response

In its response dated, June 22, 2006, FNS agreed with our recommendation and stated that it
expects to publish two rules on the At-Risk components of the CACFP. The agency anticipates
that the final At-Risk snack rule to be published by February 28, 2007, and the proposed rule for
afterschool meals (i.e. supper) would be published no later than April 30, 2007. The final supper
rule should be published during calendar year 2008.

OIG Position

We accept FNS’ management decision. For final action, FNS officials need to inform the OCFO
when the final supper rule is published.

We appreciate the courtesies and cooperation extended to our staff during this review.
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 2
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 2
Informational copies of this report have been distributed to:

Agency Liaison Officer                                          (8)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
   Director, Planning and Accountability Division               (1)
